Audit Report




OIG-11-067
SAFETY AND SOUNDNESS: Material Loss Review
of Flagship National Bank
May 3, 2011




Office of
Inspector General
Department of the Treasury
Contents

Audit Report

  Causes of Flagship’s Failure ........................................................................        2
    High Concentration of CRE-Related Loans ................................................                   3
    Inadequate Risk Management, Underwriting, and Credit Administration .......                                4

  OCC’s Supervision of Flagship ....................................................................           5
    OCC Did Not Take Timely Action to Address Flagship’s CRE Concentration…                                    6
    OCC Did Not Promptly Report Flagship’s Poor Risk Management,
        Underwriting, and Credit Administration .............................................                  6
    OCC Appropriately Used PCA .................................................................               7

  Recommendations .....................................................................................        8

Appendices

  Appendix    1:      Objectives, Scope, and Methodology ....................................                10
  Appendix    2:      Background........................................................................     12
  Appendix    3:      Management Response ......................................................             14
  Appendix    4:      Major Contributors to This Report ........................................             16
  Appendix    5:      Report Distribution .............................................................      17

Abbreviations

  CRE                     commercial real estate
  FDIC                    Federal Deposit Insurance Corporation
  Flagship                Flagship National Bank
  MLR                     material loss review
  OIG                     Department of the Treasury Office of Inspector General
  OCC                     Office of the Comptroller of the Currency
  PCA                     prompt corrective action
  ROE                     report of examination




                      Material Loss Review of Flagship National Bank                                       Page i
                      (OIG-11-067)
                                                                                          Audit
OIG
The Department of the Treasury
                                                                                          Report
Office of Inspector General



                        May 3, 2011

                        John G. Walsh
                        Acting Comptroller of the Currency

                        This report presents the results of our review of the failure of
                        Flagship National Bank (Flagship), of Bradenton, Florida, and of the
                        Office of the Comptroller of the Currency’s (OCC) supervision of
                        the institution. OCC closed Flagship and appointed the Federal
                        Deposit Insurance Corporation (FDIC) as receiver on October 23,
                        2009. This review was mandated by section 38(k) of the Federal
                        Deposit Insurance Act because of the magnitude of Flagship’s
                        estimated loss to the Deposit Insurance Fund. 1 As of March 31,
                        2011, FDIC estimated the loss to be $66.8 million.

                        Our objectives were to determine the causes of Flagship’s failure;
                        assess OCC’s supervision of the bank, including implementation of
                        the prompt corrective action (PCA) provisions of section 38; and
                        make recommendations for preventing such a loss in the future. To
                        accomplish these objectives, we reviewed the supervisory files and
                        interviewed OCC and FDIC officials. We conducted our fieldwork
                        from May 2010 through July 2010. Appendix 1 contains a more
                        detailed description of our review objectives, scope, and
                        methodology. Appendix 2 contains background information on
                        Flagship’s history and OCC’s assessment fees and examination
                        hours. Certain terms that are underlined when first used in this
                        report, are defined in, Safety and Soundness: Material Loss Review
                        Glossary, OIG-11-065 (April 11, 2011). That document is available
                        on the Treasury Office of Inspector General’s (OIG) website at
                        http://www.treasury.gov/about/organizational-
                        structure/ig/Pages/by-date-2011.aspx.



1
  At the time of Flagship’s failure, section 38(k) defined a loss as material if it exceeded the greater of
$25 million or 2 percent of the institution’s total assets. Effective July 21, 2010, section 38(k) defines
a loss as material if it exceeds $200 million for calendar years 2010 and 2011, $150 million for
calendar years 2012 and 2013, and $50 million for calendar years 2014 and thereafter (with a
provision that the threshold can be raised temporarily to $75 million if certain conditions are met).

                        Material Loss Review of Flagship National Bank                                Page 1
                        (OIG-11-067)
                      In brief, Flagship failed primarily because it had a high
                      concentration in commercial real estate (CRE)-related loans 2 and
                      inadequate credit risk management, underwriting, and credit
                      administration. Regarding supervision, OCC examiners did not take
                      timely action to address Flagship’s CRE concentration or bring to
                      management’s attention the bank’s inadequate risk management,
                      underwriting, and credit administration. However, we determined
                      that OCC appropriately used its authority under PCA. As Flagship’s
                      capital levels deteriorated, OCC acted timely to impose PCA
                      restrictions on the bank.

                      We are not making any new recommendations in this report, but
                      are reaffirming two recommendations made in our previous material
                      loss reviews (MLR) of OCC-regulated banks, 3 where we identified
                      similar causes of failure and reported similar findings regarding
                      OCC’s supervision of the banks.

                      In a written response, OCC agreed with our reaffirmed
                      recommendations and has taken action or is continuing various
                      actions. OCC noted that in interagency forums, it proposed a group
                      to study the issue of CRE concentrations. The proposal was not
                      acted upon so OCC convened an internal group to study it and
                      develop proposed solutions. CRE concentrations have been a
                      common element in a number of bank failures and we support
                      OCC’s efforts to address this issue. OCC’s full response is provided
                      in Appendix 3.


Causes of Flagship’s Failure
                      The primary cause of Flagship’s failure was its high concentrations
                      in CRE-related loans. The CRE concentration exceeded 300 percent
                      of its total risk-based capital for the entire period of our review—
                      June 2005 through October 2009. Flagship’s board and
                      management failed to implement risk-management practices
                      commensurate with the risks associated with the large CRE-related

2
  Construction and land development loans, nonfarm/nonresidential real estate loans, and multifamily
residential real estate loans collectively constitute CRE-related loans.
3
  Safety and Soundness: Material Loss Review of Union Bank, National Association, OIG-CA-10-009
(May 11, 2010), and Safety and Soundness: Material Loss Review of TeamBank, National Association,
OIG-10-001 (Oct. 7, 2009).


                      Material Loss Review of Flagship National Bank                           Page 2
                      (OIG-11-067)
loan portfolio. The bank’s liberal loan underwriting and inadequate
credit administration led to rapid asset quality deterioration and
substantial loan losses when the local real estate market declined.

High Concentration of CRE-Related Loans

OCC broadly defines concentrations as groups or classes of credit
exposures that share common risk characteristics or sensitivities to
economic, financial, or business developments. According to OCC,
a concentration exists when the common credit exposures exceed
25 percent of the bank’s capital structure. Figure 1 shows
Flagship’s CRE-related loan growth from 2005 to 2009.

Figure 1: Flagship’s CRE-Related Loan Growth and Concentration as a
Percentage of Risk-Based Capital, March 2005–September 2009 (millions)
   $90 
                                                               414%
   $80                                                388%              472%
                                                                                610%
                                              360%
   $70 
                             332% 302%
   $60 
   $50              372%

   $40      303%

   $30 
   $20 
   $10 
     $0 
           Mar‐05 Sep‐05 Mar‐06 Sep‐06 Mar‐07 Sep‐07 Mar‐08 Sep‐08 Mar‐09 Sep‐09

Source: OIG analysis of Flagship call reports.
Note: A concentration percent for the third quarter of 2009 is not shown because Flagship was in a
negative capital position.


Flagship’s CRE-related loan portfolio grew steadily from 2005,
reaching more than $80 million in March 2008. Although the
portfolio decreased after March 2008, Flagship’s concentration of
CRE-related loans continued to increase because the bank’s capital
levels declined more rapidly.

CRE-related loans pose significant risk to a bank when they are
speculative in nature, and the risk is increased when a bank


Material Loss Review of Flagship National Bank                                              Page 3
(OIG-11-067)
maintains a high concentration of such loans. From our analysis of
loan samples taken by OCC examiners, we found that Flagship’s
CRE-related loans were mostly speculative. In addition, we found
loans that were approved without developers’ securing enough
tenants or buyers for the properties in question and loans that were
processed without sufficient documentation or thorough evaluation
of borrowers’ loan repayment abilities.

The risk associated with speculative lending became apparent
when Florida’s housing market started declining during the
economic crisis that began in 2007. The quality of Flagship’s CRE-
related loans deteriorated rapidly during this time. Flagship’s
nonperforming CRE-related loans increased from $130,000 as of
March 31, 2007, to $15.4 million as of March 31, 2009. During
that period, Flagship recognized extensive loan losses and had to
make large provisions to its allowance for loan and lease losses,
which eroded capital and caused the bank to become unprofitable.
Flagship reported a $7.1 million loss for 2008 and a $32.1 million
loss for the first three quarters of 2009.

Inadequate Risk Management, Underwriting, and Credit
Administration

Flagship’s risk management practices were inadequate, and its
underwriting and credit administration were inappropriate. In OCC’s
2008 report of examination (ROE), examiners reported that the
bank’s credit administration was weak, its underwriting had been
superficial, and its credit risk management was deficient for the
size and complexity of its portfolio. Also included in the ROE was
that Flagship management did not implement risk management
practices commensurate with a large CRE-related portfolio.

The loan samples taken by OCC examiners revealed that Flagship
management did not gather sufficient information on its borrowers
and was not fully aware of borrowers’ outside debts and payment
responsibilities. The examiners also found that Flagship
management approved loans for borrowers with severe financial
weaknesses that were identified prior to loan approval, including

•   unverified stated outside liquidity (assets held outside of
    Flagship);


Material Loss Review of Flagship National Bank                    Page 4
(OIG-11-067)
                     •    incomes heavily concentrated in speculative real estate;
                     •    poor credit histories at Flagship, with numerous overdrafts; and
                     •    credit reports showing low credit scores, numerous late
                          payments, and foreclosures.


OCC’s Supervision of Flagship
                     OCC performed timely examinations of Flagship in accordance with
                     examination guidelines but did not report or take actions to address
                     the bank’s CRE concentrations or its inadequate credit risk
                     management, liberal underwriting, and poor credit administration
                     until the 2008 examination. These conditions had existed before—
                     from 2005 through 2007—but OCC did not address them during
                     the earlier examinations.

                     Summary of OCC’s Flagship Supervisory Actions

                     Table 1 summarizes OCC’s examinations of Flagship and related
                     enforcement actions from June 2005 to August 2009.

     Table 1: OCC Examinations of Flagship (June 2005–August 2009)
                                                       Examination Results
                                             Number
                                             of
                                             matters
     Date started/                           requiring
     Type of          Assets CAMELS          attention Number of             Formal enforcement
     examination    (millions) rating        (MRA)       recommendations     action
     6/27/2005             $126           2/222222     0              0      None
     (full-scope
     examination)
     2/5/2007              $203           2/222222     0              2      None
     (full-scope
     examination)
     7/28/2008             $226           4/444432     5              5      11/20/2008
     (full-scope                                                             Formal agreement
     examination)
     3/16/2009             $209           4/454542     4              0      Formal agreement (in
     (joint visit                                                            place)
     with FDIC)
     8/17/2009             $194           5/555555     0              0      Formal agreement (in
     (review)                                                                place)
    Source: OCC ROEs and PCA directive.




                     Material Loss Review of Flagship National Bank                        Page 5
                     (OIG-11-067)
                        OCC Did Not Take Timely Action to Address Flagship’s CRE
                        Concentration

                        According to interagency guidance on CRE concentration risk, an
                        institution whose CRE loans represent 300 percent or more of its
                        total capital may be identified for further supervisory analysis to
                        assess the nature and risk posed by the concentration. The
                        guidance also provides a framework for supervisory monitoring of
                        the concentrations. 4

                        As shown in figure 1, Flagship’s CRE-related loans grew steadily
                        from 2005, reaching 388 percent of total risk-based capital in
                        September 2007. OCC’s 2007 examination did not report on
                        Flagship’s CRE-related credit concentration and did not mention or
                        follow the new interagency guidance, which was released in
                        December 2006. In this regard, OCC examiners did not assess the
                        nature and risk posed by the concentration and did not assess the
                        bank’s risk management practices until the 2008 examination.

                        OCC Did Not Promptly Report Flagship’s Poor Risk Management,
                        Underwriting, and Credit Administration

                        In the 2008 ROE, OCC examiners identified previously unreported
                        problems with Flagship’s loans. They discovered problems with the
                        bank’s underwriting of new and renewed loans, several instances
                        of indefinite or liberal repayment programs, inadequate financial
                        analyses, inappropriate interest reserves, and underperforming
                        loans approved for speculative purposes. These problems were not
                        reported in the 2005 ROE or the 2007 ROE.

                        Upon reviewing the workpapers of the loan sample reviews
                        conducted by OCC during the 2005 and 2007 examinations, we
                        found that the examiners had identified many of the same
                        deficiencies reported on in the 2008 ROE. For example, the
                        examiners were aware that Flagship management did not gather
                        sufficient information on its borrowers and was not fully aware of
                        borrowers’ outside debts and payment responsibilities. The
                        examiners were also aware that Flagship management approved
                        loans for borrowers with severe financial weaknesses that were


4
    OCC Bulletin 2006-46, Interagency Guidance on CRE Concentration Risk Management (Dec. 6, 2006).

                        Material Loss Review of Flagship National Bank                       Page 6
                        (OIG-11-067)
identified prior to loan approval. But these deficiencies were not
reported in OCC’s 2005 or 2007 ROE.

An examiner who worked on the 2005 examination told us that
Flagship had no underwriting issues as of 2005. An examiner who
worked on the 2007 examination told us that Flagship had several
underwriting exceptions but that he did not see that as a problem.
On the other hand, an examiner who worked on the 2008
examination told us that Flagship’s loan problems were systemic.

OCC Appropriately Used PCA

Although we determined that OCC should have acted more
forcefully and sooner to address the unsafe and unsound practices
with Flagship, we concluded that OCC appropriately used its
authority under PCA. As Flagship’s capital levels deteriorated, OCC
acted timely to impose PCA restrictions on the bank.

The purpose of PCA is to resolve problems of insured depository
institutions with the least possible long-term loss to the Deposit
Insurance Fund. PCA requires federal banking agencies to take
certain actions when an institution’s capital drops to certain levels.
PCA also gives regulators flexibility to discipline institutions based
on criteria other than capital levels to help reduce deposit insurance
losses caused by unsafe and unsound practices.

OCC took the following key actions related to Flagship:

•   On November 20, 2008, OCC entered into a formal agreement
    with Flagship that required the bank to achieve by March 31,
    2009, and thereafter maintain, a Tier 1 leverage capital ratio of
    at least 9 percent and a total risk-based capital ratio of at least
    13 percent. The formal agreement also required the bank to
    submit a 3-year capital plan and take steps to address excessive
    CRE-related concentrations, problem loan management, and
    inadequate credit administration.

•   Flagship submitted a capital plan on March 31, 2009, and a
    revised capital plan on June 23, 2009, but OCC rejected both
    on the grounds that they failed to identify the sources, timing,
    and terms of potential capital needed to comply with the
    minimum capital requirements.


Material Loss Review of Flagship National Bank                   Page 7
(OIG-11-067)
                      •   By the second quarter of 2009, Flagship became significantly
                          undercapitalized. OCC required the bank to submit a capital
                          restoration plan no later than September 13, 2009. OCC also
                          restricted the bank from accepting, renewing, or rolling over
                          brokered deposits and restricted the yield that the bank could
                          offer on deposits.

                      •   On September 17, 2009, OCC notified the bank that it was
                          critically undercapitalized and that it disapproved the bank’s
                          capital restoration plan. On October 23, 2009, OCC closed
                          Flagship and appointed FDIC as receiver.


Recommendations
                      We are not making any new recommendations in this report, but
                      are reaffirming two recommendations made in our previous MLRs
                      of OCC-regulated banks.

                      In our May 2010 MLR report on Union Bank, 5 we reported that the
                      bank failed primarily because of high CRE concentrations and
                      stated that a strong supervisory response by OCC was warranted
                      to address the high CRE concentrations. We recommended that
                      OCC work with its regulatory partners to determine whether to
                      propose legislation and/or change regulatory guidance to establish
                      limits or other controls for concentrations that pose an
                      unacceptable safety and soundness risk and determine an
                      appropriate range of examiner response to high-risk concentrations.
                      The failure of Flagship was another case in which a bank failed
                      primarily because it had a high concentration in CRE loans that
                      warranted a strong supervisory response by OCC. Therefore, we
                      reaffirm the recommendation made in the Union Bank MLR.

                      In our October 2009 MLR report on TeamBank, 6 we also reported
                      that the bank failed due to its high-risk concentration in CRE loans


5
  Safety and Soundness: Material Loss Review of Union Bank, National Association, OIG-CA-10-009
(May 11, 2010). The review of Union Bank was performed by Mayer Hoffman McCann P.C., an
independent certified public accounting firm, under the supervision of OIG.
6
  Safety and Soundness: Material Loss Review of TeamBank, National Association, OIG-10-001 (Oct. 7,
2009).

                      Material Loss Review of Flagship National Bank                         Page 8
                      (OIG-11-067)
coupled with deficient underwriting and credit administration. We
recommended that OCC emphasize to examiners that MRAs are to
be issued in ROEs in accordance with the criteria regarding
deviations from sound management and noncompliance with laws
or policies listed in the Comptroller’s Handbook. Flagship’s high
concentration in CRE-related loans was a deviation from sound
management and warranted a proper supervisory action. Therefore,
we reaffirm the recommendation made in the TeamBank MLR.

Management Response

OCC responded that in interagency forums it proposed a group to
study the issue of CRE concentrations. The proposal was not acted
upon so it convened an internal group to study it and develop
proposed solutions. OCC said its policy for utilizing MRAs is clearly
stated within the Comptroller’s Handbook. In addition, it distributed
a MRA Reference Guide in July 2010, to further emphasize
expectations for proactive supervision, clear and assertive
communication of concerns to the Board of Directors, and prompt
follow-up on commitments for corrective action. Training was also
conducted on the Guide in all field offices in 2010.

OIG Comment

OCC’s actions meet the intent of our prior MLR recommendations.

                                *****

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-6512 or Myung G. Han, Audit Manager,
at (202) 927-4878. Major contributors to this report are listed in
appendix 4.



Michael J. Maloney /s/
Audit Director




Material Loss Review of Flagship National Bank                  Page 9
(OIG-11-067)
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We conducted this material loss review of Flagship National Bank
                        (Flagship) of Bradenton, Florida, in response to our mandate under
                        section 38(k) of the Federal Deposit Insurance Act. 7 This section
                        provides that if the Deposit Insurance Fund incurs a material loss
                        with respect to an insured depository institution, the inspector
                        general for the appropriate federal banking agency is to prepare a
                        report to the agency that

                        •   ascertains why the institution’s problems resulted in a material
                            loss to the insurance fund;
                        •   reviews the agency’s supervision of the institution, including its
                            implementation of the prompt corrective action provisions of
                            section 38; and
                        •   makes recommendations for preventing any such loss in the
                            future.

                        At the time of Flagship’s failure, on October 23, 2009, section
                        38(k) defined a loss as material if it exceeded the greater of
                        $25 million or 2 percent of the institution’s total assets. We
                        initiated a material loss review of Flagship based on the loss
                        estimate by the Federal Deposit Insurance Corporation (FDIC),
                        which on the date of failure was $58.2 million. As of March 31,
                        2011, FDIC estimated that the loss to the Deposit Insurance Fund
                        from Flagship’s failure would be $66.8 million.

                        Our objectives were to determine the causes of Flagship’s failure
                        and assess the Office of the Comptroller of the Currency’s (OCC)
                        supervision of the bank. To accomplish our review, we conducted
                        fieldwork at OCC headquarters in Washington, D.C., and its field
                        office in Jacksonville, Florida. We interviewed headquarters and
                        field office personnel. We performed work at FDIC’s Division of
                        Resolutions and Receiverships in Jacksonville, Florida, and
                        interviewed personnel involved in Flagship’s closing and
                        receivership. We also interviewed personnel from FDIC’s Division of
                        Supervision and Consumer Protection via teleconference. We
                        conducted our fieldwork from May 2010 through July 2010.

                        To assess the adequacy of OCC’s supervision of Flagship, we
                        performed the following work.


7
    12 U.S.C. § 1831o(k).

                        Material Loss Review of Flagship National Bank                  Page 10
                        (OIG-11-067)
Appendix 1
Objectives, Scope, and Methodology




•   We reviewed OCC’s supervisory files and records for Flagship
    from 2005 through 2009. We analyzed examination reports,
    supporting workpapers, and related supervisory correspondence
    to gain an understanding of the problems identified, the
    approach and methodology OCC used to assess the bank’s
    condition, and the regulatory action OCC used to compel bank
    management to address deficient conditions.

•   We interviewed and discussed various aspects of the
    supervision of Flagship with OCC officials and examiners to
    obtain their perspective on the bank’s condition and the scope
    of the examinations. We also interviewed FDIC officials
    responsible for monitoring Flagship for federal deposit insurance
    purposes.

•   We interviewed personnel from FDIC’s Division of Resolutions
    and Receiverships involved in the receivership process, which
    was conducted before and after Flagship’s closure and
    appointment of a receiver.

•   We assessed OCC’s actions based on its internal guidance and
    requirements of the Federal Deposit Insurance Act (12 U.S.C. §
    1811 et seq.).

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Material Loss Review of Flagship National Bank                 Page 11
(OIG-11-067)
                 Appendix 2
                 Background




                 History of Flagship National Bank

                 Flagship National Bank (Flagship) was a federally chartered national
                 bank. It was established as a community bank in 1999 and had no
                 holding company or affiliates. Flagship’s main office was in
                 Bradenton, Florida, and the bank had three branches in Sarasota,
                 Florida.

                 OCC Assessments Paid by Flagship

                 OCC funds its operations in part through semiannual assessments
                 on national banks. OCC publishes annual fee schedules, which
                 include general assessments to be paid by each institution based
                 on the institution’s total assets. If the institution is a problem bank
                 (i.e., it has a CAMELS composite rating of 3, 4, or 5), OCC also
                 applies a surcharge to the institution’s assessment to cover
                 additional supervisory costs. These surcharges are calculated by
                 multiplying the sum of the general assessment by 50 percent for 3-
                 rated institutions or by 100 percent for 4- and 5-rated institutions.
                 Table 2 shows the assessments that Flagship paid to OCC from
                 2005 through 2009 and their share of the total assessments paid
                 by OCC-regulated banks.

                 Table 2: Assessments Paid by Flagship to OCC, 2005–2009

Billing Period                  Exam Rating        Amount Paid    % of Total Collection

1/1/2005–6/30/2005                   2               $26,060            0.009%
7/1/2005–12/31/2005                  2               $27,614            0.009%
1/1/2006–6/30/2006                   2               $30,521            0.010%
7/1/2006–12/31/2006                  2               $31,704            0.010%
1/1/2007–6/30/2007                   2               $36,247            0.011%
7/1/2007–12/31/2007                  2               $38,563            0.011%
1/1/2008–6/30/2008                   2               $36,475            0.010%
7/1/2008–12/31/2008                  4               $36,877            0.010%
1/1/2009–6/30/2009                   4               $72,292            0.019%
7/1/2009–12/31/2009                  5               $68,818            0.018%
                 Source: OCC $MART database.




                 Material Loss Review of Flagship National Bank                           Page 12
                 (OIG-11-067)
Appendix 2
Background




Number of OCC Staff Hours Spent Examining Flagship

Table 3 shows the number of OCC staff hours spent examining
Flagship from 2005 to 2009.

Table 3: Number of OCC Hours Spent on Examining Flagship, 2005–2009

  Examination Start           Number of
       Date                Examination Hours
 6/27/2005                         355
 2/5/2007                          311
 7/28/2008                         750
 3/16/2009                         406
 8/17/2009                         875
Source: OCC Examiner View.
Note: Examination hours are totaled for safety and soundness examinations, information
technology examinations, and compliance examinations. They do not include time spent
performing off-site monitoring.




Material Loss Review of Flagship National Bank                                  Page 13
(OIG-11-067)
Appendix 3
Management Response




Material Loss Review of Flagship National Bank   Page 14
(OIG-11-067)
Appendix 3
Management Response




Material Loss Review of Flagship National Bank   Page 15
(OIG-11-067)
Appendix 4
Major Contributors to This Report




Michael J. Maloney, Director, Fiscal Service Audits
Myung G. Han, Audit Manager
Shaneasha Edwards, Analyst-in-Charge
Michelle C. Ruff, Auditor
John B. Gauthier, Auditor
Annie Y. Wong, Auditor
Benjamin J. Frank, Analyst
Katherine E. Johnson, Referencer




Material Loss Review of Flagship National Bank        Page 16
(OIG-11-067)
Appendix 5
Report Distribution




Department of the Treasury

        Deputy Secretary
        Office of Strategic Planning and Performance Management
        Office of Accounting and Internal Control

Office of the Comptroller of the Currency

        Acting Comptroller of the Currency
        Liaison Officer

Office of Management and Budget

        OIG Budget Examiner

Federal Deposit Insurance Corporation

        Chairman
        Inspector General

U.S. Senate

        Chairman and Ranking Member,
        Committee on Banking, Housing and Urban Affairs

        Chairman and Ranking Member,
        Committee on Finance

U.S. House of Representatives

        Chairman and Ranking Member,
        Committee on Financial Services

U.S. Government Accountability Office

        Comptroller General of the United States




Material Loss Review of Flagship National Bank             Page 17
(OIG-11-067)
